<html>
<title> - ANIMAL ENTERPRISE TERRORISM ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                    ANIMAL ENTERPRISE TERRORISM ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4239

                               __________

                              MAY 23, 2006

                               __________

                           Serial No. 109-125

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
27-742 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel

                          David Brink, Counsel

                        Caroline Lynch, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 23, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Mr. Brent McIntosh, Deputy Assistant Attorney General, United 
  States Department of Justice
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Ms. Michele Basso, Ph.D., Assistant Professor, Department of 
  Physiology, University of Wisconsin
  Oral Testimony.................................................    13
  Prepared Statement.............................................    14
Mr. William Trundley, Vice President, Global Corporate Security 
  and Investigations, GlaxoSmithKline
  Oral Testimony.................................................    16
  Prepared Statement.............................................    17
Mr. William Potter, Journalist
  Oral Testimony.................................................    20
  Prepared Statement.............................................    21

                                APPENDIX
               Material Submitted for the Hearing Record

The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    37
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    40
Prepared Statement of the Honorable James Inhofe, U.S. Senator, 
  Committee on Environment and Public Works......................    42
Prepared Statement of the Honorable Thomas E. Petri, a 
  Representative in Congress from the State of Wisconsin.........    44
Prepared Statement of Mr. Frankie L. Trull, President, National 
  Association for Biomedical Research............................    46
Prepared Statement of Dr. Bruce R. Bistrian, President of the 
  Federation of American Societies for Experimental Biology 
  (FASEB)........................................................    51
Prepared Statement of Mr. Mark L. Bibi, General Counsel, Life 
  Sciences Research..............................................    60
Prepared Statement of Ms. Gale Davy, Executive Director, 
  Wisconsin Association for Biomedical Research & Education......    63
Prepared Statement of Mr. Keith Kaplan, Executive Director, Fur 
  Information Council of America.................................    66
Prepared Statement of Mr. Wesley J. Smith, J.D., Senior Fellow, 
  Discovery Institute............................................    70
Prepared Statement of Mr. James C. Greenwood, President and CEO, 
  Biotechnology Industry Organization............................    79
Prepared Statement of the California Healthcare Institute (CHI)..    83
Results of Preliminary Survey of Threat Posed by Animal Rights 
  Extremists, Conducted by the California Healthcare Institute 
  (CHI)..........................................................    86
Letter to the Honorable Howard Coble from the Animal Enterprise 
  Protection Coalition (AEPC)....................................    87
Letter from F2 Chemicals Ltd.....................................    90
Letter to the Subcommittee on Crime Terrrorism, and Homeland 
  Security from Dr. Amanda Carson Banks, President and CEO, the 
  California Biomedical Research Association.....................    93
Letter to the U.S. Committee on Animal Rights Extremism from Mrs. 
  Wendy Bantin...................................................    95
Top 20 List of Illegal Actions by Animal and Eco-Terrorists, 
  1996-2006, Complied by the Foundation for Biomedical Research..    96
News Article, Animal research does not validate trespass.........   103

 
                    ANIMAL ENTERPRISE TERRORISM ACT

                              ----------                              


                         TUESDAY, MAY 23, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice at 10 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chairman of the Subcommittee) presiding.
    Mr. Coble. Good morning, ladies and gentlemen.
    Today the Subcommittee on Crime, Terrorism, and Homeland 
Security is conducting a legislative hearing on H.R. 4239, the 
``Animal Enterprise Terrorism Act,'' which was introduced on 
November 4, 2005, by several of our colleagues. And the lead 
sponsor is the distinguished gentleman from Wisconsin Mr. 
Petri, whom I recognize in the audience today, along with 
Chairman Sensenbrenner, and Representatives Issa, McCotter, 
Cannon, Bonilla, Calvert, Otter, Boren, Blackburn and 
Doolittle.
    H.R. 4239 was introduced in response to a growing threat 
commonly referred to as ecoterrorism. While we are still 
responding to the threat about international terrorism, groups 
of impassioned animal supporters have unfortunately employed 
tactics to disrupt animal research and related businesses by 
terrorizing their employees. Today's testimony will detail what 
employees have come to fear, but it is safe to say that their 
fear is real and justified.
    This practice originated with protests against companies 
conducting animal research. The protests became violent, and as 
they continue in severity, they are now being focused on 
employees of businesses with any remote relationship to the 
primary research. The range of potential victims includes 
employees of banking, insurance, securities and pharmaceutical 
companies, and even universities.
    Dr. Tom O'Connor of North Carolina Wesleyan College teaches 
a course on the different types of terrorism. According to Dr. 
O'Connor, and I quote, ``Ecoterrorism involves extremist views 
on environmental issues and animal rights, and is a fringe-
issue form of terrorism aimed primarily at inflicting economic 
damage on those seen as profiting from the destruction and 
exploitation of the environment,'' closed quote. Dr. O'Connor 
distinguishes the environmentalist movement from the more 
extreme ecoterrorists in this way, and again I quote, quote, 
``Environmentalists work within the system for preservation, 
and ecoterrorists seem to want to destroy civilization as we 
know it in order to save the planet,'' closed quote.
    Because many of these acts are not considered an offense 
under the current animal enterprise terrorism statute, that is, 
18 U.S. Code 43, H.R. 4239 would expand the reach of the animal 
enterprise terrorism statute to specifically include the use of 
force, violence or threats against entities that do business 
with animal enterprise organizations. Specifically, the 
legislation would prohibit the international damaging of 
property--or strike that--the intentional damaging of property 
of a person or entity having a connection to, relationship with 
or transactions with an animal enterprise, and make it a 
criminal act to intentionally place a person in reasonable fear 
of death or serious bodily injury to that person or his or her 
family because of his or her relationship with the animal 
enterprise.
    Since the bill has been introduced, the Committee has been 
approached by a couple of groups with concerns about ensuring 
first amendment protections that are included for lawful 
protests, boycotts and other activities. The legislation was 
not intended to infringe on these rights in any way. 
Accordingly, a manager's amendment clarifying that those rights 
will continue to be protected was included in Members' packets 
and will be introduced at a subsequent markup on which Members 
can cast their votes.
    I have received numerous statements to be entered into the 
record in support of this bill, including statements from the 
House and Senate sponsors of this legislation, Representative 
Petri, who I mentioned earlier, and Senator Inhofe, the 
distinguished gentleman from Oklahoma.
    And I look forward to hearing from the witnesses today, and 
especially would like to thank Dr. Michele Basso and Bill 
Trundley for their willingness to testify about their 
experiences.
    [The prepared statement of Mr. Petri follows in the 
Appendix]
    [The prepared statement of Senator Inhofe follows in the 
Appendix]
    Mr. Coble. At this time I am pleased to recognize the 
distinguished gentleman from Virginia, the Ranking Member of 
this Subcommittee, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. I would like to thank 
you for holding a markup on H.R. 4239, the ``Animal Enterprise 
Terrorism Act.'' Apparently, our current Federal law that was 
designed to protect businesses and employees in animal 
enterprises are doing a pretty good job. However, many of these 
businesses and employees are now complaining that other 
businesses and nonprofits and their employees, board members 
and family members with whom they are affiliated are being 
stalked, harassed, intimidated. They have had their businesses, 
homes or cars vandalized, and some individuals even physically 
assaulted.
    Indications are that animal rights groups that have used 
extreme tactics to press their point of view were taking 
advantage of the fact that animal enterprise laws do not cover 
these types of secondary relationships to wage a campaign of 
threats, harassment, intimidation and fear-mongering in an 
effort to have them sever their relationships with targeted 
animal enterprises. This bill was designed to cover these 
perceived gaps or loopholes in the current animal enterprise 
protection laws.
    Citizens engaging in lawful activities as well as those 
associated with them are entitled to be protected from criminal 
acts and to be able to go about their lawful activities free 
from threats to their person or property and that of their 
family and associates. State laws are generally good at 
providing those protections. However, the interstate nature of 
the planning and conduct of these criminal and harassment 
tactics by groups skilled at avoiding the laws make it 
difficult for States to effectively get at some of the 
problems, and that is what the bill is designed to cover.
    While we must protect those engaged in lawful animal 
enterprises, we must also protect the right of those engaged in 
their first amendment freedoms and expressions regarding such 
enterprises. The issue was acknowledged and addressed in the 
bill. However, we received concerns that protections do not go 
far enough to ensure that first amendment freedoms are not 
compromised.
    I am aware, Mr. Chairman, of your proposals to further 
improvements in this area, and I want to work with you to 
ensure that we provide the protections of lawful activities 
that are needed here without jeopardizing first amendment 
freedoms. Included in those freedoms, Mr. Chairman, is a right 
to engage in peaceful civil disobedience, and I'm not sure the 
proposals adequately take that into account. If a group's 
intention were to stage a sit-down, lie-down or to block 
traffic to a targeted facility, they certainly run the risk of 
arrest for whatever traffic, trespass or other laws they are 
breaking, but they should not be held any more accountable for 
business losses due to delivery trucks being delayed any more 
than anyone else guilty of such activities.
    I am concerned, Mr. Chairman, that the bill treats 
conspiracies and attempts the same as a completion of an 
offense. While someone who has not completed an offense solely 
because they were caught by law enforcement before the 
completion should not be rewarded, I believe we should also 
encourage potential offenders to change their mind at any time. 
Insisting that offenders who decide not to go through with an 
offense will get the same sentence as if they had only helps 
ringleaders or others promote the philosophy that if I am going 
to be shot for being a wolf, I might as well eat the sheep.
    So, Mr. Chairman, I look forward to testimony by witnesses 
to see how we can strike a proper balance between protecting 
lawful activities and our first amendment freedoms. Thank you.
    Mr. Coble. I thank the gentleman.
    [The information referred to follows in the Appendix]
    Mr. Coble. Lady and gentlemen, it is the practice of the 
Subcommittee to swear in all witnesses appearing before it, so 
if you would, please, stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that the witnesses answered 
in the affirmative. And you may be seated.
    We have a distinguished panel today. Ladies and gentlemen, 
we are glad to welcome the rest of you in the audience as well. 
Our first witness is Deputy Assistant Attorney General Brent 
McIntosh. Mr. McIntosh is a Deputy Assistant Attorney General 
in the United States Department of Justice Office of Legal 
Policy. Prior to joining the Justice Department, Mr. McIntosh 
was an attorney with the New York law firm of Sullivan and 
Cornwell. He also served as a law clerk for the United States 
Court of Appeals for the D.C. Circuit and the U.S. Circuit 
Court of Appeals for the Second Circuit.
    Mr. McIntosh was awarded an undergraduate degree from the 
University of Michigan and holds a J.D. from Yale University.
    Our second witness is Dr. Michele Basso. Dr. Basso is an 
assistant professor with the University of Wisconsin's 
Department of Physiology, Ophthalmology and Visual Sciences. 
Dr. Basso's current emphasis is on understanding normal brain 
mechanisms controlling complex behaviors and how these 
mechanisms go awry in movement-disordered states. This research 
seeks to reveal the neurophysiological underpinnings of 
movement disorders such as Parkinson's disease, Huntingdon's 
disease and dystonia. Her research is highly coordinated with 
practicing clinicians, and in some instances uses animal 
models, in particular the rhesus monkey. Dr. Basso received her 
doctorate from SUNY in Stony Brook.
    Ophthalmologist, I just wanted to make sure I can say it, 
Doctor.
    Our third witness is Mr. William Trundley, Vice President 
of Corporate Security and Investigations for GlaxoSmithKline. 
Mr. Trundley has global responsibility for a range of areas, 
including countering extremist activity against the company and 
its employees, product security, protection of personnel 
information and assets, security risk analysis and 
investigations.
    Mr. Trundley has served for 24 years as a major with the 
Royal Military Police Special Investigation Branch during which 
time he undertook a variety of assignments in several overseas 
areas, including Europe, North America and the Far East. Mr. 
Trundley holds an M.S. from Western University and a United 
States diploma in security management.
    Our final witness today, Mr. William Potter. Mr. Potter is 
a freelance reporter based in Washington, D.C., and has focused 
attention on animal rights and environmental activists whose 
activities result in prosecutions and the civil rights 
implications involved. He has written for publications 
including the Chicago Tribune, The Dallas Morning News, Legal 
Affairs, The Chronicle of Higher Education, In These Times, The 
Texas Observer, The Washington City Paper, Z and CounterPunch. 
Mr. Potter was graduated summa cum laude from the University of 
Texas at Austin with a degree in journalism.
    We've been privileged to be joined by the distinguished 
gentleman from Massachusetts Mr. Delahunt.
    So Mr. McIntosh, why don't you be our lead-off hitter 
today, and we will let Mr. Potter be the clean-up hitter. And 
as we have told you all previously, folks, Mr. Scott and I try 
to operate under the 5-minute rule. When the amber light 
appears before you on the panel, that is your warning that you 
have 1 minute remaining. Now you will not be keel-hauled if you 
fail to conclude in 5 minutes. When the red light appears, 
that's your warning that 5 minutes have elapsed, and if you 
could wrap up at that point.
    Mr. McIntosh.

TESTIMONY OF BRENT McINTOSH, DEPUTY ASSISTANT ATTORNEY GENERAL, 
              UNITED STATES DEPARTMENT OF JUSTICE

    Mr. McIntosh. Thank you, Mr. Chairman, Ranking Member 
Scott, Congressmen. Good morning.
    On behalf of the Department of Justice, I thank you for 
this opportunity to testify regarding the Department's efforts 
to investigate and prosecute those who threaten violence and 
commit criminal acts in the name of protecting animals.
    The Department remains dedicated to protecting the American 
people from the threat of violence imposed by extremists, while 
at the same time protecting the first amendment rights 
guaranteed to all Americans.
    We have had some success in prosecuting animal rights 
extremists. Most recently, on March 2, 2006, six members of an 
animal rights group called Stop Huntingdon Animal Cruelty, or 
SHAC, were convicted of inciting attacks on those who worked 
for or did business with Huntingdon Life Sciences, a British 
company that runs an animal testing laboratory.
    As demonstrated by the SHAC convictions, extremists have 
not hesitated to use violence and the threat of violence to 
further their social and political goals. In some cases, such 
as those involving arson or explosives, Federal prosecutors are 
well equipped to prosecute and punish extremists, but not all 
animal rights extremists use arson and explosives.
    In pursuit of its goal of closing Huntingdon Life Sciences' 
animal testing operations, SHAC and its sympathizers have 
employed a wide variety of harassing and intimidating 
techniques which SHAC itself calls its, quote, ``top 20 terror 
tactics,'' end quote, designed to terrorize SHAC's targets 
while avoiding an effective law enforcement response. For 
example, these violent extremists have advocated and 
facilitated such direct actions as vandalizing--including fire-
bombing homes, businesses and cars--fraud and ID theft; making 
bomb threats or threats to harm or kill targets, targets' 
partners, targets' children.
    To target these techniques, SHAC has posted on the Internet 
law-abiding employees' home telephone numbers, the names of 
their spouses and children, even the schools where those 
children attend. In short, these extremists are engaged in a 
nationwide campaign to place law-abiding citizens in a 
reasonable fear of death or of serious bodily injury to 
themselves or their loved ones.
    Although the existing Animal Enterprise Protection Act is 
an important tool for prosecutors, animal rights extremists 
have tailored their campaigns to exploit limits and ambiguities 
in the statute by targeting individuals and businesses 
associated with the animal enterprise rather than the animal 
enterprise itself. Considered individually, these actions are 
State crimes, but local police often lack the investigative 
resources and nationwide perspective to put these local 
offenses into context as a multijurisdictional campaign of 
violence. So while the U.S. Attorney in New Jersey can 
prosecute some of SHAC's crimes under the existing statute, 
most of the charges brought in that prosecution came under the 
interstate stalking statute.
    The bill under consideration today would fill gaps in the 
current law, and the Department supports it. Most important, as 
the Ranking Member said, the existing statute's focus on 
physical disruption of the actual animal enterprise permits the 
argument that it does not cover a campaign that harms the 
animal enterprise, not directly, but by targeting persons and 
entities that do business with an animal enterprise. H.R. 4239 
would make clear that committing the proscribed conduct against 
an employee of an animal enterprise or against an entity 
related to an animal enterprise is equally illegal.
    Before I conclude, let me spend a moment on people the 
Department does not prosecute. The Department is acutely aware 
of the importance of protecting the first amendment rights of 
those who lawfully protest the treatment of animals. Let me say 
this as clearly as I can: The Department does not prosecute and 
does not wish to prosecute those who lawfully seek to persuade 
others. On this issue the Department has found wide common 
ground with members of the Humane Society and the ACLU. We 
recently met with both groups. We all agree that any tactic or 
strategy of involving violence or threats of violence is not to 
be tolerated. On the other hand, we are committed to ensuring 
that the law has no chilling effect on lawful activities 
designed merely to persuade.
    This proposed law builds on existing concepts in the 
Federal Criminal Code, and as a legal matter breaks no new 
ground. Still, the Department has heard the concerns of the 
Humane Society and the ACLU, has seen the manager's amendment, 
and is happy to work with the Subcommittee to leave no doubt 
that nothing in the law prohibits any expressive conduct 
protected by the first amendment.
    The great majority of animal rights advocates make their 
case through lawful first amendment activity, but those who 
cross the line from free speech to criminal conduct should be 
prosecuted and punished appropriately, and prosecutors should 
have the tools to make sure that happens.
    Mr. Chairman, thank you again for inviting us here today. 
We thank this Subcommittee for its continued leadership and 
support, and we welcome your questions.
    Mr. Coble. Thank you, Mr. McIntosh. And your timing was 
superb, you ended at the right time with the red light.
    [The prepared statement of Mr. McIntosh follows:]
                Prepared Statement of Brent J. McIntosh
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. The pressure is on you, Dr. Basso. Good to have 
you with us, Dr. Basso.

    TESTIMONY OF MICHELE BASSO, Ph.D., ASSISTANT PROFESSOR, 
       DEPARTMENT OF PHYSIOLOGY, UNIVERSITY OF WISCONSIN

    Dr. Basso. Thank you, Mr. Chairman, Ranking Member Scott, 
and other Congresspersons for the invitation to speak to you 
about my experiences.
    I am an assistant professor of physiology at the University 
of Wisconsin. I am also an affiliate of the Wisconsin Regional 
Primate Center because of my work with nonhuman primates, and 
our goal is to try to understand the brain mechanisms of 
Parkinson's disease, which, as you know, is a debilitating 
disorder of movement.
    We work together very closely with neurologists and 
neurosurgeons who develop state-of-the-art techniques for 
treating Parkinson's disease, and our goal is to understand how 
these techniques work and how to improve them in order to 
increase the quality of life for patients who suffer from 
movement disorders such as Parkinson's disease.
    My experience with animal rights activity began about 3 
years or so ago. And two organizations at the University of 
Wisconsin tried to purchase property immediately adjacent to 
two of the primate centers located on campus, the Harlow Lab 
and the Wisconsin Regional Primate Center. They rented it with 
an option to purchase, and their mission or their goal, stated 
goal, was to establish a holocaust museum for the monkeys that 
were killed in the research programs going on at the Primate 
Center.
    The second thing was these two groups also started a 
meeting on campus monthly called Primate Vivisection, A to Z, 
where they talk about--or try to engage investigators to 
discuss animal research and also the use of animals in 
research. Because of the chancellor at the university's 
commitment to free speech, of course, these programs continue 
on campus, and they use university facilities.
    Now, I first heard of these activists, the same groups, 
with respect to a protest that took place at the University of 
Wisconsin, and with targeting members of the University of 
Wisconsin at their homes. I was among eight of the faculty 
members and the academic staff who were targeted. Although they 
went to the wrong home--they didn't have my correct address--
what they did was they appeared at homes with a truck that had 
a video monitor on it displaying images of animals in cages, 
and they shouted with bullhorns obscenities and defamatory 
statements about the persons in the home, went and rang the 
doorbell and ran away and various activity like that--
activities such as that. They also handed out fliers with my 
photograph and contact information, as well as sort of 
defamatory statements regarding me and my research.
    So in response to this--I was very nervous and concerned 
about my safety, so I tried to protect myself in two ways. The 
first was I removed my name from the Internet sites where you 
can go to the tax assessor's office and find out the property 
that a person owns by typing in their name. So I removed that 
from the Website. And the second thing I did was to hire an 
attorney to quit-claim deed my house into another name so that 
if someone were to go to the tax assessor's office, they would 
not be able to find out where I lived or my home address.
    But within 2 months' time--less than 2 months, I started to 
receive magazine subscriptions. First they came slowly, but 
then they came rather aggressively. I have over 50-plus 
magazine subscriptions and various paraphernalia. I also 
received various books, the titles of which are things like 
fatal--"Oh, What a Slaughter,'' ``Fatal Burn,'' ``Predator,'' 
``The Perfect Orgasm,'' things like this. At the same time, I 
received two phone calls, voice messages, anonymous voice 
messages, through a messaging service that said something to 
the effect of, Hello, Michele, we know you're a monkey killer, 
and you can't get away from us. We hope you enjoy the magazines 
that you are receiving. And you will never get away, even 
though you tried to change the name on your house, things like 
that. So there were at least two of those messages.
    So I guess I can't stress the critical impact that this has 
had on me and my ability to do my work. And I know that a 
number of my colleagues across the country experience similar 
targeting as well as more violent and aggressive--one colleague 
has had their house windows broken and their yards destroyed in 
California, for example.
    So it's critical, also, to point out that the work that I 
do is subject to very strict regulations and oversight, and we 
have at least five animal care and use committees on campus 
that regulate what we do. And we also abide by the 3R 
principles for research: We reduce, refine or replace our 
animal models whenever possible. And when we are doing that 
already, we are required to justify why we don't do it even 
more. So working on animals, we believe, is a privilege, and 
one that we don't take lightly.
    So I would like to just thank all of you for considering 
this important legislation and hearing my testimony. Thank you.
    Mr. Coble. I thank you, Doctor.
    [The prepared statement of Dr. Basso follows:]
                  Prepared Statement of Michele Basso
    My name is Michele Basso. I am an Assistant Professor of Physiology 
at the University of Wisconsin Madison Medical School. I am also 
affiliated with the Wisconsin Regional Primate Center because my 
laboratory studies primates as a model to understand Parkinson's 
Disease. Our research, which is funded by the National Institutes of 
Health and the Parkinson Disease Foundation, focuses on how the brain 
integrates visual information to produce movement. As you all know, 
Parkinson's disease is a debilitating neurodegenerative disease that is 
caused by a defect in the brain's ability to correctly initiate and 
control movement. I work together with neurologists and neurosurgeons 
across the country who treat Parkinson's patients with state of the art 
surgical therapies. In the laboratory, we use non human primates to 
understand the mechanisms of action of these therapies in order to 
improve them. Finally, our work on non human primates together with our 
work on humans will improve the quality of life of patients suffering 
from movement disorders such as Parkinson's disease.
    About 3 years ago, an FBI agent opened a case for me because I 
received an email from an unknown source calling me an animal killer 
and equating me with Dr. Mengele, the war criminal who tortured humans 
during the Nazi era. At the same time, a colleague told me that my home 
address was circulating through an animal rights chat group. These 
events followed a Freedom of Information Act request for my animal use 
protocol, to the Director of the WI Primate Center.
    Since then, animal rights activists have been active on campus. 
First, the Wisconsin Alliance for Animals and the Primate Freedom Group 
rented, with an option to purchase, a piece of property immediately 
adjacent to the two primate centers--The Harlow Lab and the WRPC. The 
groups referred to the building as the upcoming ``Holocaust Museum'' 
designed to remember the monkeys killed by researchers at the two 
primate centers. Second, some time around September 2005, a monthly 
meeting, held on the University campus called ``Primate Vivisection 
from A to Z'' began. Since the University is committed to the free 
speech rights of all members of the community, the Wisconsin Alliance 
for Animals and the Primate Freedom Group were granted access to 
University property and facilities for these meetings. The stated 
purpose of these meetings is to inform the University and surrounding 
community about the research going on at the Primate Centers and to 
establish a dialogue with investigators regarding the use of animals in 
research. These meetings are still occurring.
    In October 2005, the UW Madison police department contacted me and 
informed me of an upcoming animal rights protest. I would be one of 8 
University members who would be targeted at their homes.
    The animal rights protest consisted of a truck with a video screen 
on three sides. The screens displayed images of non human primates in 
cages. The truck was parked outside people's homes and a group of 
activists with bullhorns harassed the people inside the homes. The name 
of the person was shouted along with accusations such as monkey killer 
or animal abuser. The protestors would run to the front door, ring the 
bell and run away. They circulated flyers about the individual to the 
neighbors. Over the course of one week, they attended the homes of 7 of 
the 8 people, the two primate center directors, one academic staff and 
4 scientists. 5 of these 7 people directly targeted were female. Of the 
51 non-human primate investigators on campus, only 11 of these are 
women.
    The activists attempted to go to my home but made a mistake and 
protested in front of the wrong house. They circulated a flyer 
throughout the neighborhood containing my photograph and incorrect 
contact information as well as a number of misstatements regarding my 
research program and personal attacks on my competency. They also wrote 
with chalk on the sidewalk covering an area approximately 3 feet by 5 
feet that said, ``Basso Animal Abuser''.
    When people disagree they are entitled to exert their first 
amendment rights. For example, if a group does not agree with a 
potential legislative action, they protest at the government office or 
in public squares, but not in front of private homes. Protests at 
private homes serve what purpose other than to malign people and their 
children, intimidate and frighten families in their homes?
    After this disturbing set of events, I attempted to protect myself 
by doing two things. First, anyone can go online to the tax assessor's 
office web page and look up a name to find a home address. I contacted 
the office and requested that they remove my name from the web site. 
Second, removal from the web does not eliminate access to the 
information. Anyone can still go to the office and look up personal 
information. So I hired an attorney to quit claim deed my home into 
another name. In this way, my name would not be associated with any 
property in Madison.
    In slightly less than 2 months time, I received a magazine to which 
I did not subscribe. Then I received a couple more magazines. I started 
to receive statements from magazine companies indicating that I placed 
gift subscriptions to others on campus. I received in total 
approximately 50+ magazine subscriptions and other mail-order 
paraphernalia.
    At the same time I received two anonymous voice messages from a 
messaging agency. Both messages had very similar content and I 
paraphrase: `Hello Michele, we know you are a monkey killer. We hope 
you are enjoying the magazines you have been receiving. You cannot get 
away from us.' The second message said the same but included a 
statement like, `you cannot hide from us even though you changed the 
name on your house. You will never get away from us.'
    In addition to the magazine subscriptions, I received two book club 
subscriptions. Each arrived with an initial shipment of  hardcover 
books. Some of the titles of these books include ``Fatal Burn'' ``Oh 
What a Slaughter'' ``Predator'' ``The Perfect Orgasm'' and the like. As 
I am sure you can appreciate, these activities take up an enormous 
amount of my time. I was reported to a credit agency due to delinquency 
for a magazine subscription but because the FBI is investigating these 
events, I have a case number I supply to the companies to correct these 
issues.
    It is critical to point out that biomedical research is subject to 
very strict regulations and oversight. We have an animal care and use 
committee for each school at Madison and an all campus committee that 
oversees all schools. My research meets or exceeds all standards set by 
the USDA, Public Health Service Policy as well as local guidelines for 
the care and use of non human primates in research. We abide by the 
well-known 3R principle concerning the use of animals. Whenever we can, 
we reduce the numbers of animals used, we replace the animal model with 
some other or we refine the technique we use to ensure maximal well-
being of the animals. When we already meet the 3R requirements, we are 
required to justify why we cannot reduce or refine more. Working on 
animals is a privilege that neither I, nor my colleagues take lightly.
    I would like to thank all of you for considering this important 
legislation. I believe it is important that we protect the free speech 
rights of all individuals. It is equally important for me to be able to 
come and go from work and my home and not feel threatened, intimidated, 
harassed or slandered. I have a right to live free of fear. Thank you 
very much.

    Mr. Coble. Mr. Trundley.

TESTIMONY OF WILLIAM TRUNDLEY, VICE PRESIDENT, GLOBAL CORPORATE 
          SECURITY AND INVESTIGATIONS, GLAXOSMITHKLINE

    Mr. Trundley. Good morning, Chairman Coble, Ranking Member 
Scott and Members of the Subcommittee. My name is Bill 
Trundley, and I'm the vice president of corporate security and 
investigations for GlaxoSmithKline.
    GSK is targeted by animal rights extremists because of our 
relationship with Huntingdon Life Sciences. This is secondary 
targeting. Tertiary targeting involves similar violent attacks 
against companies and individuals merely because they have a 
relationship with GSK.
    In the past 21 months in the U.S., GSK has experienced 150 
incidents, including 75 intimidating home demonstrations and 10 
cases of serious damage to property, which have traumatized 
employees, their families and their children. In all of these, 
the common thread has been fear, intimidation and the threat of 
violence, as you can see from this poster, which depicts a T-
shirt with a picture of an AK-47 assault rifle and glorifying 
violence against researchers.
    This other exhibit is a SHAC terror card used by extremists 
to threaten employees and their families. Some of these 
terrorist acts against our employees include mail theft, which 
reveal the spouse's alcohol treatment program. They left a 
bottle of beer at her door with a note saying, ``Have a drink, 
bitch,'' and then went to her son's school to hand out this 
disgraceful flier to his classmates. They also left a message 
on the family phone saying, ``We've been watching you, and we 
know you're alone.''
    Several employees' homes have been attacked at night, 
smashing windows while they slept. In Philadelphia, an employee 
was threatened by an extremist who yelled at her, ``I have your 
license plate; we'll track you down and we'll kill your 
family.'' In Baltimore, an employee was contacted late at night 
asking her to come to the city morgue to identify a relative 
who died. On arrival, she learned the call was a hoax. One 
employee's 8-year-old son was so traumatized by these 
incidents, he would wake up at night staring out of the window, 
so scared that the terrorists would return. And in some cases, 
over 100 extremists have terrified employees at their homes 
like a baying, screaming lynch mob.
    We have noticed an increase in the frequency and severity 
of these acts, which also involve others merely because of 
their association with GSK, and these include attacks against 
people who work for universities, charities and other 
companies. Their homes, cars and other property have been 
wrecked. And in one case a retiree in Long Beach, New Jersey, 
had his home and car damaged simply because his name was the 
same as a GSK employee's; he had no connection with GSK, and it 
was a case of mistaken identity.
    Now, GSK has received excellent support from law 
enforcement, but continues to be targeted; and to date, none of 
the acts against GSK has resulted in a criminal conviction. 
This is because the current laws are inadequate. We believe 
that H.R. 4239 will enable law enforcement to deal effectively 
with these crimes, and we urge Congress to pass this 
legislation.
    The situation today in the U.S. Is similar to what we 
experienced in the U.K. 5 years ago. In the first 6 months of 
2001, GSK employees in London experienced over 3,000 separate 
actions by animal extremists. Prominent U.S. Extremists spent a 
year or more in the U.K. During 2002 where they were seen to 
associate with leading U.K. Extremists. At that time there was 
little support from the U.K. Police, who could never apply 
appropriate resources to deal with the situation.
    The extremists became emboldened and placed fire bombs at 
the homes of our employees while their children were asleep in 
the house; destroyed entire buildings and other property; 
terrorized employees, their families and their children. A year 
ago, the U.K. Government introduced an effective piece of 
legislation and gave additional resources to the police. We are 
now seeing the benefits of this.
    My advice to the Chairman and Members today is if the U.S. 
doesn't act now, they will face the same level of violent 
escalation and endangerment to the lives of American citizens.
    I would like to finish by saying that before any new 
medicine can be used on humans, it is necessary to test their 
safety on animals, as required by Federal law. And those 
involved in scientific research are regular people trying to 
earn a living, raise a family and provide a decent future for 
their children. They are committed to the discovery of new 
medicines to help cure serious illness and disease; yet it is 
they and their families and associates who are left to suffer 
at the hands of violent extremists.
    Thank you for the opportunity to appear before you today.
    Mr. Coble. Thank you, Mr. Trundley.
    [The prepared statement of Mr. Trundley follows:]
                 Prepared Statement of William Trundley
    Good afternoon, Chairman Coble, Ranking Member Scott and members of 
the Subcommittee. My name is Bill Trundley, I am the Vice President of 
Corporate Security & Investigations for GlaxoSmithKline and I want to 
thank you for the opportunity to address the Subcommittee regarding the 
impact of Animal Rights Extremists (ARE) on GSK employees as well as 
other individuals who have been targeted solely because of their 
relationship with GSK.
    GlaxoSmithKline is one of the world's leading healthcare companies 
that discovers, develops, manufactures and markets pharmaceuticals, 
vaccines, over-the-counter medicines and health-related consumer 
products. Part of this work involves testing new medicines on animals 
to assess the safety of the substances before they are administered to 
humans, as required by law in just about every country in the world.
    GlaxoSmithKline strongly supports and encourages passage of H.R. 
4239 and its Senate counterpart to give law enforcement personnel the 
tools necessary to prosecute illegal animal rights activity.
    Although GSK is a global research based pharmaceutical company, we 
are targeted by animal rights extremists because of our business 
relationship with Huntingdon Life Sciences (HLS). This tactic is 
referred to as secondary targeting because it attacks a company's 
customers rather than the company itself. In this case, GSK is targeted 
because it has a business relationship with HLS. Even more outrageous 
is `tertiary targeting' which seeks to punish businesses and 
individuals merely because they have some remote relationship with GSK 
or a GSK employee. Animal rights extremists have found these tactics to 
be effective because they exploit current law's inadequacy of 
addressing and protecting non-primary targets. HR 4239 will address 
this secondary and tertiary targeting and close the existing loophole 
that has been exploited in order to terrorize completely innocent 
people and legitimate businesses.
    In the past 21 months in the US, GSK has experienced approximately 
150 AR incidents directed at our employees, Board members, and others 
with only a tenuous connection to GSK. Unfortunately this list includes 
several non-profit organizations such as the Eisenhower Fellowship, 
universities, and private high schools.
    Since January 2005, GSK employees and our friends and family have 
been subjected to approximately 75 intimidating and threatening home 
demonstrations and 10 cases of criminal damage to property in the 
United States. These incidents have traumatized employees and family 
members particularly children. In many cases, intimidating and 
defamatory flyers have been circulated to neighbors and classmates of 
children of GSK employees.
    In all of these incidents the common thread has been fear, 
intimidation and the threat of criminal action, and in many instances 
the ensuing criminal acts demonstrate that these were not idle threats 
or mere free speech. [Show exhibit at this point] The exhibit entitled 
``SHAC Terror Card'' is a typical flyer used at these demonstrations. 
This card proclaims ``Do you do business with Huntingdon Life Sciences? 
. . . If you do, there's something you should know . . . Radical animal 
rights activists have been targeting executives and employees of 
companies that work with HLS'' with criminal activity including: 
smashed windows; spray painted houses; glued locks; vandalized cars; 
stolen credit card numbers; ID theft; fraud; and continuous acts of 
harassment and intimidation against employees, their children and 
spouses. The card states that ``the only way to end or prevent such 
attacks . . . is to stop doing business with Huntingdon.'' It is no 
coincidence that many of the threatened criminal acts in this flyer 
have been carried out against our employees and associates.
    Some of the acts committed by those representing animal rights 
groups include:

        <bullet>  Theft of mail from a GSK employee, which revealed 
        divorce proceedings and an alcohol treatment program recently 
        completed by his spouse. Animal Rights Extremists left a bottle 
        of beer at her front door and a note stating ``Have a drink 
        Bitch''. The same day AREs visited the school of her son 
        placing slanderous flyers throughout the campus depicting one 
        parent as an animal killer and the other an alcoholic. Similar 
        defamatory statements were e-mailed to the school's staff. 
        [Redacted version of Flyer to be show during this part] On a 
        previous visit to the spouse's residence an anonymous message 
        was left on her answering machine stating ``We have been 
        watching you and we know you are alone.''

        <bullet>  A GSK senior executive had his home attacked twice in 
        the middle of the night resulting in spray painting of the 
        exterior of the house with the words ``Puppy Killer Dave'' and 
        a rock thrown through a large front window. He has also been 
        subjected to anonymous late night threatening calls and 
        numerous daytime intimidating demonstrations, where defamatory 
        flyers and the SHAC ``terror card'' were distributed to 
        neighbors.

        <bullet>  During a Hugs for Puppies (a NJ/PA based animal 
        extremist group) protest at GSK's Philadelphia parking 
        facility, a female GSK employee was threatened by a Hugs for 
        Puppies protestor, when he yelled at her, ``I have your license 
        plate, we will track you down and kill your family.''

        <bullet>  A GSK physician was contacted in the middle of the 
        night by someone posing as an employee of the Baltimore City 
        Morgue, requesting her to come to the morgue to identify a 
        relative who had died. Upon arrival at the morgue she learned 
        that the call was a hoax, and was then fearful that someone was 
        lying in wait for her upon returning to her home in the middle 
        of the night.

        <bullet>  Another GSK employee was subjected to several ARE 
        demonstrations at his home, including leafleting the 
        neighborhood with the SHAC Terror Card. The employee's eight 
        year son was traumatized by the incident, waking up in the 
        middle of the night staring out the window for fear that the 
        terrorists would return.

    Obviously GSK is very concerned about the targeting of its 
employees and we've noticed an upsetting trend in the frequency and 
increasing severity of these acts. While we will continue to protect 
our employees in an appropriate manner, it is worth mentioning that 
other individuals have been targeted merely because of their 
association with GlaxoSmithKline. For instance:

        <bullet>  The President of a New York University had his house 
        spray painted because he invited someone to speak at the mid-
        year commencement address who happened to sit on the same board 
        of another organization with a GSK employee.

        <bullet>  An employee of the Eisenhower Fellowship had acid or 
        paint stripper thrown onto two vehicles parked at her residence 
        just beneath an open window near where her young son lay 
        sleeping. The employee at the time was expecting her second 
        child. Eisenhower is a non-profit organization who happens to 
        have a GSK executive on their Board.

        <bullet>  Eisenhower Fellowship also had the locks of their 
        building glued causing the expense of replacing the damaged 
        locks.

        <bullet>  A Long Beach Island, NJ, retiree had his home and car 
        spray painted simply because he had a name similar to a GSK 
        executive. He has no affiliation with GSK or HLS. Animal Rights 
        Extremists have been arrested for this crime and are awaiting 
        trial.

        <bullet>  A Philadelphia area executive serving on a Board of 
        Directors with a GSK Senior executive was subjected to 
        character assassination solely because of the GSK executive 
        presence on the same board. After having his mail stolen from 
        his residential mailbox, country club members were informed he 
        was a pedophile by a forged letter purportedly from a fellow 
        club member. An invitation to an anniversary dinner was also 
        stolen, resulting in an obscenity laden message to the hostess 
        threatening intimidation if the individual wasn't uninvited 
        from the private dinner party.

        <bullet>  A senior executive of a Fortune Five Hundred 
        specialty chemical company had his home spray painted and his 
        car doused with acid or paint stripper, again solely because a 
        GSK executive serves on their Board.

    GSK has received excellent support from law enforcement, and is 
appreciative of the efforts by agencies such as the FBI, Philadelphia 
Police Department, and other State and Local law enforcement agencies. 
Despite this support, GSK continues to be targeted with intimidation 
and criminal acts, and to date none of the acts against GSK has 
resulted in a criminal conviction, despite the tireless efforts of law 
enforcement. We believe this is because the existing laws are 
inadequate to provide law enforcement and prosecutors with the tools 
necessary to bring these terrorists to justice. GSK believes House Bill 
4239, the Animal Enterprise Terrorism Act, will provide law enforcement 
with those tools, and we urge Congress to pass this legislation.
    It is worth mentioning here that the situation today in the USA is 
very similar to what we experienced in the UK five years ago. I can 
tell you that in the first six months of 2001, GSK employees living and 
working in and around London experienced over 3,000 separate terrorist 
actions by animal extremists. I am aware that leading lights in the US 
animal extremism movement spent up to a year or more in the UK during 
2002/3 where they were seen to be associating with the leading lights 
in the UK extremist groups. At that time, there was little or no 
support in the UK from the police who claimed that, as there was no 
resolve by government, they could not apply the appropriate resources 
to deal effectively with the situation. Because of this, the extremists 
became more emboldened and have placed firebombs at the homes of our 
employees while their children were asleep in the house, destroyed 
property, terrorized children and caused incredible stress on 
individuals and their families. A year ago, the UK government 
introduced more effective legislation and provided the police with the 
necessary resources. We are now seeing the benefits of these measures. 
Had it not been for the introduction of effective legislation, and its 
application by the police, the situation in the UK would have worsened 
and my advice to the Chairman and members today, based on personal 
experience, is that if the US doesn't act now, they will face the same 
level of escalation and similar acts of violence, intimidation and the 
endangerment of lives of American citizens. The patterns of offending 
and extremist behavior are the same.
    I would like to finish by saying that those involved in scientific 
research are regular people, trying to earn a living, raise a family 
and provide a decent future for their children. They are committed to 
the discovery of new medicines to help cure serious illness and disease 
yet it is they and their families and associates who are left to suffer 
at the hands of violent extremists.
    Thank you for the opportunity to appear before you today.

    Mr. Coble. Mr. Potter.

            TESTIMONY OF WILLIAM POTTER, JOURNALIST

    Mr. Potter. Good morning, Chairman Coble, Ranking Member 
Scott, and Members of the Committee.
    Mr. Coble. Mr. Potter, if you would suspend a minute, I 
won't penalize you. I want to recognize the distinguished 
gentleman from Florida Mr. Feeney, and the distinguished 
gentleman from Ohio Mr. Chabot, who have joined us.
    And you may continue, Mr. Potter.
    Mr. Potter. Thank you, sir.
    Good morning, Chairman Coble, Ranking Member Scott and 
Members of the Committee. I am honored to be invited to discuss 
civil liberties concerns raised by the Animal Enterprise 
Terrorism Act. As should be clear from the outset, though, I'm 
not a lawyer, I'm not a first amendment scholar, and I am not a 
spokesperson for the animal rights movement or underground 
groups. I'm here because of my freelance reporting.
    I've written for the Chicago Tribune, The Dallas Morning 
News, Legal Affairs and other publications. And since 2000, 
I've closely followed the animal rights and the environmental 
movements, and the corporate-led backlash against them. I've 
documented an increasingly disturbing trend of terrorist 
rhetoric, sweeping legislation, grand jury witch hunts, 
blacklists, and FBI harassment reminiscent of tactics used 
against Americans during the Red Scare. The Animal Enterprise 
Terrorism Act is a continuation of that trend. The bill is 
ostensibly a response to illegal actions in the name of animal 
rights.
    Department of Justice officials have told this Congress 
that their hands are tied in prosecuting these crimes, but 
their press statements tying the arrests of so-called 
ecoterrorists don't match this rhetoric. Just this weekend, 
four individuals were indicted for the 1998 fire at a Vail ski 
resort. The Government recently rounded up over a dozen 
environmental activists in the Northwest for alleged property 
crimes, and six animal activists were convicted in March of 
animal enterprise terrorism and other charges.
    If this Committee wants surveillance, round-ups and 
convictions of animal activists, that's already underway. Law 
enforcement has not proven the need for heavier-handed tactics. 
Property crimes are already punishable as so-called animal 
enterprise terrorism. This bill, though, further expands that 
sweeping category to include protests, boycotts, undercover 
investigations, whistleblowing and nonviolent civil 
disobedience. The bill criminalizes any activity against an 
animal enterprise or any company tangential to an animal 
enterprise that causes economic damage defined as including the 
loss of profits. That's not terrorism, that's effective 
activism.
    Businesses exist to make a profit, and if activists want 
change, they have no choice but to tug at pursestrings. That 
principle guided the grape boycotts of the United Farm Workers, 
the lunch counter civil disobedience of civil rights activists 
and the divestment campaigns of antiapartheid groups. Those 
tactics all hurt profits, and those tactics, if directed at an 
animal enterprise, would all be considered terrorism under this 
legislation.
    Exceptions were made in the bill for losses from public 
reaction to information about an enterprise, but that's not an 
adequate safeguard. Corporations could argue that undercover 
investigators and whistleblowers hurt profits beyond public 
reaction. Those activists may cause a financial loss because 
they received a salary or prompted extensive employee 
background checks or prompted additional security measures.
    Perhaps the greatest danger of this legislation, though, is 
that it will impact all animal activists, even those that never 
have to enter a courtroom. The reckless use of the word 
``ecoterrorism'' by corporations and the Government has already 
had a chilling effect, and this legislation will compound it. 
Through my reporting I've already heard the widespread fears of 
activists that they may soon be labled terrorists, even for 
legal activity. They point to media smear campaigns by industry 
groups like the Center for Consumer Freedom, and many were 
stunned by full-page anonymous adds in both The New York Times 
and The Washington Post with a figure in a black mask labeling 
animal rights activists as terrorists.
    They are also keenly aware that the Department of Homeland 
Security does not list right-wing terrorists on the list of 
national security threats, as in the Congressional Quarterly 
article I brought today, but puts animal activists at the top 
of that list.
    This legislation will add to this climate of fear and 
distrust, and it will force Americans to ask themselves, is it 
worth it? Is standing up for my beliefs really worth the risk 
of being labeled a terrorist? That is not a choice that anyone 
should have to make.
    Other activists may soon be asking themselves the same 
questions though. Prolife groups have already raised concerns 
that this bill could become the model for liberals in a changed 
Congress to target antiabortion acts as terrorists.
    Public fears of terrorism since the tragedy of September 
11th should not be exploited to push a political agenda. I urge 
you to reject this bill and ensure that limited antiterrorism 
resources are used to protect national security and human life, 
not profits.
    Thank you, again, for this opportunity, and I look forward 
to your questions.
    [The prepared statement of Mr. Potter follows:]
                   Prepared Statement of Will Potter
    Good morning Chairman Coble, Ranking Member Scott, and members of 
the committee. I am honored to be invited to discuss civil liberties 
concerns raised by H.R. 4239, the Animal Enterprise Terrorism Act.
    I should be clear from the outset, though. I am not a lawyer. I'm 
not a First Amendment scholar. And I'm not a spokesperson for the 
animal rights movement, or underground groups.
    I'm here because of my freelance reporting. I have written for 
publications including The Chicago Tribune, The Dallas Morning News, 
and Legal Affairs. And since 2000, I have closely followed the animal 
rights and environmental movements, and the corporate-led backlash 
against them. I've documented an increasingly disturbing trend of 
``terrorist'' rhetoric, sweeping legislation, grand jury witch hunts, 
blacklists, and FBI harassment reminiscent of tactics used against 
Americans during the Red Scare.
    The Animal Enterprise Terrorism Act is a continuation of that 
trend.
    The bill is ostensibly a response to illegal actions committed by 
underground activists in the name of animal rights. Business groups 
have lobbied for this legislation for years. And Department of Justice 
officials have said they need help prosecuting these crimes.
    At the same time, they have been patting themselves on the back for 
arresting so-called ``eco-terrorists.'' Just this weekend, four 
individuals were indicted for the 1998 fire at a Vail ski resort. 
Earlier this year, the government rounded up over a dozen environmental 
activists in the Northwest for property crimes. And on top of that, six 
animal activists were convicted in March of ``animal enterprise 
terrorism'' and other charges.
    If committee members want law enforcement to focus resources on the 
animal rights and environmental movements, that's already being done. 
The government has been able to make arrests and convictions using 
existing laws.
    This legislation will not help solve crimes. It will, however, risk 
painting legal activity and non-violent civil disobedience with the 
same broad brush as illegal activists. It takes the administration's 
``you're either with us or against us'' mentality of the War on 
Terrorism and applies it to activists.
    This legislation criminalizes any activity against an animal 
enterprise, or any company connected to an animal enterprise, that 
causes ``economic damage.'' That includes the replacement costs of lost 
or damaged property or records, the costs of repeating an interrupted 
or invalidated experiment, and ``the loss of profits.''
    That clause, ``loss of profits,'' would sweep in not only property 
crimes, but legal activity like protests, boycotts, investigations, 
media campaigning, and whistleblowing. It would also include campaigns 
of non-violent civil disobedience, like blocking entrances to a 
laboratory where controversial animal testing is taking place.
    Those aren't acts of terrorism. They are effective activism. 
Businesses exist to make money, and if activists want to change a 
business practice, they must make that practice unprofitable. That 
principle guided the grape boycotts of the United Farm Workers, the 
lunch-counter civil disobedience of civil rights activists, and the 
divestment campaigns of anti-apartheid groups.
    Those tactics all hurt profits. And those tactics, if directed at 
an animal enterprise, would all be considered ``terrorism'' under this 
bill. In fact, those three examples would probably receive stiffer 
penalties, because they caused ``significant'' or ``major'' economic 
damage or disruption. In other words, the more successful that 
activists are, the greater terrorist threat they become under this 
bill.
    It is my understanding at the time of drafting this testimony that 
proposed changes might exclude ``expressive conduct (including peaceful 
picketing or other peaceful demonstration) protected from legal 
prohibition by the First Amendment.'' It is a positive, yet 
incremental, first step to include peaceful picketing. However, the 
bill does not specifically exclude other activity like boycotts, 
whistleblowing, undercover investigation, and non-violent civil 
disobedience.
    Furthermore, the inclusion of ``trespassing'' in damaging and 
disruptive activity puts undercover investigators and whistleblowers 
further at risk. Undercover video and photography undoubtedly impact 
profits. They have also led to prosecutions, animal welfare reforms, 
and a more informed democratic process on these issues.
    Exceptions are made in the bill for disruption or damage ``that 
results from lawful public, governmental, or business reaction to the 
disclosure of information about an animal enterprise.'' But this is no 
safeguard. For instance, undercover investigators and whistleblowers 
may cause financial loss for a company beyond the losses related to 
third party reactions. Companies may argue that salaries for undercover 
investigators, increased internal security, and extensive employee 
background checks are added costs of doing business because of 
activists. In short, this exemption seems to pose more questions than 
it answers.
    You probably have noted that I have not focused on the clauses of 
this legislation dealing with significant bodily injury or death caused 
by activists. Those provisions are each problematic, but they are also, 
in some ways, non-issues. It's unlikely that even illegal, underground 
activists like the Animal Liberation Front would be impacted. Their 
actions, such as releasing mink from fur farms, spray-painting 
buildings, and arson, have not claimed a single human life.
    This legislation will impact all animal activists, even if they 
never enter the courtroom. It will add to the chilling effect that 
already exists because of ``eco-terrorism'' rhetoric by corporations, 
lawmakers and law enforcement. Through my interviews with grassroots 
animal rights activists, national organizations, and their attorneys, I 
have heard widespread fears that the word ``terrorist'' could one day 
be turned against them, even though they use legal tactics.
    They point to full-page anonymous ads in both The New York Times 
and The Washington Post this month, labeling animal rights activists 
``terrorists.'' The ads promote a website, www.nysehostage.com, that 
says ``anti-business activists'' like the Teamsters, Communication 
Workers of America and Greenpeace could be the next ``eco-terrorists.'' 
Media campaigns by the Center for Consumer Freedom and other industry 
groups have used similar rhetoric to smear legal activist groups.
    Activists also feel that the government is disproportionately 
focusing resources and attention on the animal rights and environmental 
movements. They cite reporting by Congressional Quarterly that showed 
the Department of Homeland Security does not list right-wing terrorists 
on a list of national security threats.
    Those groups have been responsible for the Oklahoma City bombing, 
the Olympic Park bombing in Atlanta, violence against doctors, and 
admittedly creating weapons of mass destruction, but animal rights 
activists still top the domestic terrorist list.
    This legislation will add to this fear and distrust, and will force 
Americans to decide if speaking up for animals is worth the risk of 
being labeled a ``terrorist,'' either in the media or the courtroom. 
That's not a choice anyone should have to make.
    Animal rights activists have been among the first victims of this 
terrorist scaremongering, but if it continues they will not be the 
last. Changes in the Supreme Court seem to have revitalized the anti-
abortion movement, which, unlike the animal rights movement, has a 
documented history of bloodshed. But there's also a potential for 
backlash if upcoming elections alter the balance of power in 
Washington. Some anti-abortion organizations, like the Thomas More 
Society, have already raised concerns that this legislation could 
become a model for labeling other activists as terrorists.
    All Americans should be concerned about this trend, regardless of 
how they feel about animal rights. The word terrorism should not be 
batted around against the enemy of the hour, to push a partisan 
political agenda. Public fears of terrorism since the tragedy of 
September 11th should not be exploited for political points. I urge you 
to reject this legislation in its entirety, and ensure that limited 
anti-terrorism resources are not spent targeting non-violent activism.
    Thank you again for this opportunity, and I look forward to your 
questions.

    Mr. Coble. Thank you, Mr. Potter, and thanks to each of you 
panelists.
    Now we impose the 5-minute rule against ourselves as well, 
folks, and I suspect we'll probably have a second round because 
this is a very significantly important issue.
    Dr. Basso, I think you correctly stated that most--well, 
strike that--many--I remember you said most, but I'm sure many 
activists do so properly and lawfully. Unfortunately, they're 
tainted with the same brush with which those who don't do it 
lawfully. That's the unfortunate feature here. And it is my 
belief--now, I'm not suggesting these people are terrorists, 
they may be, but terrorists generally are cowards, or they 
conceal their face with black masks. They strike, as you 
pointed out, Doctor, at night, by dark of night. It bothers me.
    Now, I'm not interested in trampling on anybody's first 
amendment rights. As I mentioned earlier, and the Ranking 
Member mentioned in his statement, we have a manager's 
amendment, but I really don't know that that was important 
because I think the bill, on its face, indicates first 
amendment protection.
    But, Doctor, if you will, tell us in some detail how 
critical animals are in your research and its potential benefit 
for mankind--briefly if you can, because I'll need to get 
around to these other guys.
    Dr. Basso. The use of animals in research is critical. 
Virtually every major advance in the last century has depended 
upon the use of animals. In my research in particular, we 
coordinate very closely with clinicians, neurosurgeons and 
neurologists, and we try to ask as many questions as possible 
of the human brain, but we have to remember also those patients 
with whom we work are undergoing surgical procedures, and so 
they're there principally to be treated for their disease. What 
we then need to do is go back into the laboratory and replicate 
either the disease or the treatment in order to understand how 
it's working and how to make it better for the next time.
    Mr. Coble. I thank you.
    Mr. McIntosh, some might indicate that the recent 
convictions of the six SHAC extremists to which you alluded in 
New Jersey might well suggest that no additional legislation 
such as this before us is necessary. What say you to that?
    Mr. McIntosh. Thank you, Mr. Chairman.
    We do not agree that the recent SHAC convictions indicate 
that no additional legislation is necessary. As I mentioned, we 
were forced to use the stalking statute there because, as has 
been indicated explicitly on a number of Websites, animal 
rights extremists explicitly attempt to tailor their tactics to 
avoid Federal jurisdiction, Federal investigation and 
prosecutorial jurisdiction. And so we believe that following 
successful prosecutions under the stalking statute, we would 
see another permutation to move to a situation where those 
extremists are trying to avoid the stalking statute perhaps by 
targeting not individuals, but entities.
    Moreover, we think that clarity in the law on how broadly 
section 43 of the Animal Enterprise Protection Act applies is 
an independent good thing because it gives us a sense of what 
the actual crimes these extremists may be committing are, and 
thus doesn't force prosecutors to hunt through title 18 of the 
Code to find a crime they may have committed while attempting 
to avoid section 43. And second, it gives them a sense for what 
the Federal crimes actually are, what the scope of the Federal 
crimes are. And the scope of section 43 right now is not clear.
    Mr. Coble. I thank you, Mr. McIntosh.
    Let me try to beat the red light by putting a question to 
Mr. Potter.
    Mr. Potter, in your testimony you expressed concern that 
nonviolent civil disobedience would be criminalized under this 
bill. Let me ask you this, sir: Do you believe that spray 
painting abusive graffiti on people's homes and vandalizing 
homes and businesses or pouring acid on cars, do you think that 
is nonviolent?
    Mr. Potter. I think those are absolutely crimes, and 
they're absolutely not nonviolent civil disobedience.
    Mr. Coble. So you say that would be violent civil 
disobedience.
    Mr. Potter. I think that because I'm not an attorney----
    Mr. Coble. And I'm not trying to entrap you.
    Mr. Potter. I think they're absolutely crimes----
    Mr. Coble. Okay. I didn't understand you clearly.
    My red light appears, and I'm just pleased to recognize the 
distinguished gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. McIntosh, you've indicated that you prosecute some and 
don't prosecute others, and make good judgments along those 
lines. One of the concerns I have is what you prosecute and 
don't prosecute ought not be your discretion, but ought to be 
how the law is written. Let me ask a couple of questions along 
those lines.
    What is the law for everybody else in other kinds of 
crimes, other kinds of protests in terms of business losses? 
How does the treatment in this circumstance differ from other 
kinds of protests?
    Mr. McIntosh. Let me make an initial point here, which is 
that the loss of profits provision is not new to this bill, 
it's currently--it's part of the current law; so we are not 
proposing to change that provision. Section 43(d)(3) of the 
current law includes loss of profits in the current law.
    It is my understanding that in this case we're seeing a 
specific targeting--we're seeing a set of tactics used in the 
animal enterprise terrorism or animal enterprise extremism 
front, and in the ecoextremism front more broadly, that is 
explicitly aimed at using violence against--violence and 
threats of violence against people to cause them to 
disassociate themselves, perhaps by imposing a loss of profits 
on--I'm sorry, to disassociate themselves with the animal 
enterprise. So this is a tactic we're seeing specifically in 
this area that we're not seeing in many other places.
    Mr. Scott. Well, if it were to occur in another situation 
or another cause, why should that, too, not be illegal?
    Mr. McIntosh. Congressman, I think that we would suggest 
that if some other cause adopted a similar set of tactics in an 
attempt to commit this sort of violence extortion, that 
similarly it ought to be illegal.
    Mr. Scott. Are you not concerned that when you make these 
things cause-specific, you get into freedom of speech content?
    Mr. McIntosh. Sir, we are not interested in what the cause 
is. If there are--if this is being used against other causes, 
we would be happy to see the ability to prosecute it as well. 
We are interested only in the tactics involved.
    Congress has seen fit to pass an animal enterprise 
terrorism statute, and we are happy to prosecute it as it 
exists. And if there are proposals to give us that authority, a 
similar authority for other causes, we would be happy to 
prosecute those as well, sir.
    Mr. Scott. The bill provides for the same treatment for 
conspiracy attempts as the completed offense. Is there 
precedence for that?
    Mr. McIntosh. I believe there is, sir. In a number of 
instances they are treated the same. And I would be happy to, 
after the hearing today, get back to you with a list of similar 
places where--of places where they're treated similarly. We 
believe it is justified to do so because when two or more 
people conspire, they often can commit greater damage than an 
individual person. And moreover, they often lead themselves 
through sort of egging one another on to complete a conspiracy 
that an individual would not feel compelled to complete.
    Mr. Scott. Well, that's--if you have the conspiracy or the 
attempt treated the same way as a completed offense, there's no 
incentive to discontinue.
    Mr. McIntosh. Well, the attempt actually involves an 
attempt to succeed, so discontinuance is not a subject; that's 
a failed attempt to complete.
    Conspiracy, on the other hand, is a situation where we 
think that often a conspiracy to commit the substantive 
offense, because of the greater damage it threatens, can be 
worse than an individual attempting to commit the offense on 
his or her own.
    Mr. Scott. I yield back.
    Mr. Coble. The gentleman's time is expired.
    The distinguished gentleman from Florida Mr. Feeney.
    Mr. Feeney. Thank you, Mr. Chairman.
    Dr. Basso, first, do you believe that you were targeted 
because of the research you were doing to try to understand the 
causes and treatment of Parkinson's disease, and was that 
research funded by the National Institutes of Health, in part?
    Dr. Basso. Excuse me. I'm not sure why I was targeted, 
frankly. And yes, the research is funded by the National 
Institutes of Health and also the Parkinson's Disease 
Foundation.
    Mr. Feeney. Thank you.
    Mr. Potter, I appreciate that you don't have a legal 
background. In your testimony you oppose the bill because you 
say that it--and I quote, ``it criminalizes any activity,'' 
that causes economic damages. But the truth of the matter is 
the bill is very specific; it does not criminalize any 
activity, it criminalizes activity that either intentionally 
damages, disrupts or causes the loss of any property. So 
destruction or damaging property, or, alternatively, 
intentionally places in reasonable fear of the death of or 
serious bodily injury to a person, that's the traditional legal 
definition so that you understand it, that's called an assault. 
A battery is actually attacking somebody physically; an assault 
is the imminent threat to do so under traditional tort 
understanding. These are already illegal activities.
    The point is that people are behaving illegally to make 
political purposes. In my view, you're just flat out wrong. 
They ought to be responsible for the natural and consequential 
damages of their disruptive behavior. There are first amendment 
protections that all of us believe are very important to this 
country, but I would advise you not to be making statements 
that any activity is criminalized because it's just flat out 
false. And maybe next time you'll want to consult--go ahead, 
you can answer.
    Mr. Potter. Well, Congressman, with all due respect, I'd 
like to point out that the definition given of economic damage 
means the replacement cost of lost or damaged property or 
records, the cost of repeating an interrupted----
    Mr. Feeney. Mr. Potter, we'll have to get you a logic 
course that you can understand one step to the next----
    Mr. Potter. If I can just finish. The easier is the loss of 
profits, and I think that's what would give any----
    Mr. Feeney. Reclaiming my time. I point out that the 
gentleman simply doesn't understand. You're not responsible for 
any of the definition you just talked about unless you have 
intentionally damaged or destroyed property or threatened 
somebody's life or bodily injury. So all of what you're 
referring to is not of concern if you behave legally. I want to 
assure you and advise you to go talk to an attorney before you 
come and testify before the United States Congress about what 
bills do when, in fact, they do not do.
    If you commit a crime, then you may be responsible for some 
of those damages, and then the definition of what you're 
responsible for is important. But as long as you have not 
committed a crime, I want to assure you there's nothing in this 
bill that would make you a target of obligation for those 
economic damages.
    Mr. McIntosh, I do believe that the gentleman from Virginia 
raises an important point, because whether or not you're trying 
to protect animals, or whether or not you're trying to 
protect--whatever issue you have, ultimately the goal is to 
protect a monkey or an unborn life or whatever issue you may 
have, and it is a concern that, as opposed to attacking the act 
when the act is the spray paint or the act is the imminent 
threat, I mean, it is a concern of mine that we are identifying 
specific causes, as worthwhile as they may be, for specific 
crimes. And you indicated that you're more concerned about the 
act than the goal as well. Is it fair to say, does the Justice 
Department itself take a position on that?
    Mr. McIntosh. That is correct, Congressman. We are more--we 
are apolitical in this. We have no interest in the cause in 
question, we have only the interest of ensuring that the 
tactics used to advance that cause are lawful. It is our 
intention to prosecute unlawful acts without regard to the 
cause of----
    Mr. Feeney. One concern that I have in your testimony, you 
suggest that--and of course you haven't said this is 
criminalized by the act--but on page 3 of your testimony you 
said that one of the economic activities that causes--well, one 
of the activities that political groups use is Internet posting 
of home telephone numbers of law-abiding employees. I'm not 
aware of any Federal or State statutes that they may violate. 
If I post on the Internet my neighbor's address or telephone, 
is that a Federal crime?
    Mr. McIntosh. Sir, that is not a Federal crime. The Federal 
crime is if you were to post that information in connection 
with a threat of violence that would put a reasonable person in 
fear for harm or death to himself or someone else----
    Mr. Feeney. So it's attached to the assault definition, 
genuine imminent concern about an attack.
    Mr. McIntosh. That's right. This is what the courts call a 
true threat, where you post a person's name along with that----
    Mr. Feeney. Well, maybe in future testimony you will make 
it clear that you're not concerned about just mere posting of 
addresses and telephone numbers, it's combined with the other 
threat aspects that concern you.
    Mr. McIntosh. Congressman, to the extent I didn't make that 
clear, I apologize.
    Mr. Coble. I thank the gentleman from Florida.
    The distinguished gentleman from Massachusetts, Mr. 
Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Dr. Basso, your experience clearly is unfortunate and 
unacceptable. I think we all concur that it should not be 
tolerated. But I am going to direct my comments to the Deputy 
Attorney General.
    You know, as I see and read the various cases that are 
reflected in the memorandum, I don't see a single case that 
would not fall within the purview of multiple--multiple State 
statutes, as well as a variety of Federal existing statutes, 
not necessarily just simply focused on the so-called Animal 
Terrorist Enterprise Act.
    You know, the former Attorney General under President 
Reagan, Ed Meese, expressed his concern about the 
federalization of crime in this country, and, to be candid with 
you, I think that this could very well serve as an example. You 
know, you had to go to the--I guess the stalking statute to 
effect the indictments of those who were responsible--
purportedly, allegedly--for the burning of a building out in 
Vail, Colorado; but I'm not convinced that there are not 
sufficient tools already to deal with the cases that are 
illustrated in the memorandum, as well as related by Mr. 
Trundley and Dr. Basso. I mean, as the gentleman indicated an 
assault, what about civil rights actions, both at the State and 
the Federal level? You know, if there's a conspiracy here, if 
there's an organized enterprise, why not invoke RICO? Respond 
if you would.
    Mr. McIntosh. Sir, I would be happy to do so. Let me first 
state that the Vail indictments actually involve an arson 
indictment. So they are not under section 43.
    Mr. Delahunt. But that's my point. You're making my case 
for me. And I'm sure under a State statute arson carries a 
significant sanction.
    Mr. McIntosh. Let me try and address this question with 
regard to the way these cases are investigated and prosecuted. 
In many cases these are not just local actions, we're talking 
about nationwide, and indeed in SHAC's case, an international 
conspiracy that----
    Mr. Delahunt. I understand that because I just perused the 
memorandum. But in a RICO investigation, for example, why not 
utilize the RICO statute?
    Mr. McIntosh. We have a----
    Mr. Delahunt. I mean, you have predicate crimes.
    Mr. McIntosh. In many cases SHAC has, and other animal 
extremists have tailored their crimes specifically, their 
campaign specifically to avoid committing predicate acts so 
that we can use RICO. Recently, the Supreme Court ruled in the 
Schindler case that a Hobbs Act predicate, which was a 
traditional hook for prosecuting these sorts of things, the 
traditional RICO predicate, was not available unless the 
defendant had gained for himself something of value. So if----
    Mr. Delahunt. Well, again, you know, and I don't have much 
time, but do you work with local and State authorities during 
the course of the investigation of these crimes?
    Mr. McIntosh. We absolutely do, sir.
    Mr. Delahunt. I would dare say that, in many cases, that 
the sanctions that would be available under State statutes 
would be far more severe than the possible sanction under the 
Federal statute.
    Mr. McIntosh. As a matter of law----
    Mr. Delahunt. We're talking threats, we're talking assault, 
we're talking violation of civil rights. You know and I know 
that for each and every single conviction there's the 
possibility of a parole after sentence.
    Mr. McIntosh. In many cases the----
    Mr. Delahunt. Consecutive sentences.
    Mr. McIntosh. We are seeing explicit attempts to commit low 
level harassment that in the end convinces people, despite the 
fact that these are low level actions of State crimes, that 
they are in a reasonable fear of death. And these are often 
crimes that have very low penalties individually when you look 
across the broad----
    Mr. Delahunt. I will tell you, I can't--that's difficult 
for me. And I'm using Dr. Basso's case. An aggressive 
prosecutor in an investigation that would establish the 
violation of multiple State statutes, and given the parameters 
that you describe in terms of what this organization is about, 
would warrant, presumably, after conviction parole after 
sentences with considerable incarcerations. Now maybe that 
hasn't happened, but that's the problem of, you know, not 
looking--that's the problem in terms of recommendation to a 
court post jury verdict.
    Mr. McIntosh. In many cases the incident against Dr. Basso 
cannot be connected by a local law enforcement agency to the 
action 2,000 miles away against someone else; whereas with a 
Federal offense we can connect those things and see them as a 
crime in both places committed by the same person.
    Mr. Delahunt. If the Chair would indulge me for an 
additional minute.
    Mr. Coble. Just for 1 minute.
    Mr. Delahunt. My point is on sentencing in State courts, 
the availability of bringing additional information before the 
court for sentencing purposes would clearly be allowed.
    Mr. McIntosh. We are not seeing success with that in State 
and local law enforcement.
    Mr. Delahunt. Well, I'm surprised. Have you consulted with 
the National District Attorneys Association on these cases?
    Mr. McIntosh. I don't know that we have, but I would assume 
that we have and I am happy to get back to you with that 
information.
    Mr. Delahunt. Well, again, my reluctance to embrace this is 
based upon a continuing federalization of State crimes. I 
understand there's a current statute on the books now, and it's 
not in any way an endorsement of the behavior that has 
victimized Dr. Basso and presumably others, but at some point 
in time we have to, you know, either respect the concept of 
federalism where these kind of crimes traditionally in our 
jurisprudence fall within the purview of the States. And if the 
States are not enforcing them, then it's a question of 
education, and insisting that State prosecutors work with 
Federal authorities in those cases where it's clear that this 
is an organized effort directed against Dr. Basso. And I just 
can't imagine, I can't imagine a State prosecutor not seeking 
the kind of penalties that would exceed whatever exists under 
Federal statutes.
    Mr. Coble. The gentleman's time is expired.
    The distinguished gentleman from Ohio, Mr. Chabot, is 
recognized for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. McIntosh and Mr. Potter, if I could begin with the two 
of you. How do members of the groups that we have been 
discussing here this morning communicate with each other in 
order to organize and plan their targeting campaigns? And 
perhaps, Mr. McIntosh, we could begin with you.
    Mr. McIntosh. Congressman, we see the use primarily of the 
Internet to organize these campaigns. These tend to be often 
loosely affiliated groups that post the names and other 
biographical data of individuals online. And sometimes these 
are individuals associated with the actual enterprise, 
sometimes they're people associated with groups affiliated with 
the enterprise. I know that in Mr. Trundley's written testimony 
he also talks about targeting groups that are associated with, 
are entities associated with a group.
    So these are a broad set of biographical data that are 
posted, often named as targets, and then they will list a set 
of tactics that ought to be taken against these people. And 
then when those tactics are taken by some anonymous entity, 
they are immediately, the next morning, up on the website 
saying some party did this, as we said they ought to.
    Mr. Chabot. Thank you.
    Mr. Potter, anything you'd like to add to that, or could 
add to it?
    Mr. Potter. Yes. Thank you, Congressman.
    I would like to add that when we were discussing first 
amendment speech, and even very controversial first amendment 
speech, like posting news of an illegal action, the Supreme 
Court has been extremely protective of first amendment 
activity, even in the most controversial----
    Mr. Chabot. Well, if you could just answer the question if 
you would. Do you know how they communicate with each other?
    Mr. Potter. From my understanding, it is through telephone 
calls, e-mail, the same way everyone communicates.
    Mr. Chabot. Okay. Thank you very much.
    Dr. Basso--and I'm pronouncing that correctly, aren't I? 
Okay, thank you. Do you think that young scientists might seek 
other fields to pursue if intimidation and harassment continues 
on campus and at people's homes?
    Dr. Basso. Yes, I most absolutely do. I myself have 
considered leaving the field in light of my experiences. I have 
colleagues across the country who have experienced what I have 
experienced, and worse, and they have told me that they would 
leave. I have colleagues in the United Kingdom who are looking 
to leave because they feel they can no longer do their 
research.
    So my concern in the long run is not only that young 
scientists won't go into the field, but already established 
scientists might even leave and go where the environment is 
more conducive.
    Mr. Chabot. Can you estimate how much of a financial 
burdenthat it's been for the University of Wisconsin to add 
extra security to protect those involved with research?
    Dr. Basso. Right. So I think that there has been somewhat 
of a small response to deal with some of these issues; and in 
large part I think because the seriousness of the problems is 
not fully recognized, and it may be in part because of a lack 
of a Federal legislation. So I think it's been a little slow.
    But for me personally, my laboratory has been outfitted 
with alarm systems. And I know that we're moving toward 
increasing access to animal barriers, animal facilities and so 
forth. Not to mention my own time that I spend engaged in these 
activities, preventing me from engaging in my research efforts.
    Mr. Chabot. Could you comment on what State and local 
guidelines are in place for the humane treatment of the animals 
which you use in your scientific research and what decision-
making body exists to determine when these guidelines have been 
breached?
    Dr. Basso. Animal research, and in particular non-human 
primate research, is subject to very strict regulations and 
oversight. And I'm not an expert in this area, so I can't give 
you all the details, but I know what my laboratory is required 
to do.
    At the University of Wisconsin we have five animal care and 
use committees, one of which is an all campus committee that 
overseas the activities across the entire university. The five 
campus committees are from each of the individual schools, the 
medical school, the agricultural school and so forth. Those 
committees are made up of a number of scientists, a lay person, 
veterinarians. And their obligation and charge is to read 
through protocols that are submitted by scientists in advance 
of the work being conducted, and they have to abide by the 
rules and regulations set by the USDA, the guidelines set by 
the Public Health Service Policy, and also our own local policy 
rules.
    Mr. Chabot. Thank you. Mr. Chairman, could I ask unanimous 
consent to ask Mr. Trundley one additional question?
    Mr. Coble. Without objection.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Trundley, throughout your testimony you detailed 
numerous acts of intimidation and criminal activity. How much 
would you say that GSK spends each year on security and cleanup 
because of the animal rights extremists?
    Mr. Trundley. Well, sir, we do keep that information, but I 
would be prepared to give that to you personally outside of 
this meeting, because from our experience we would give that 
answer and then by the end of the day such information would be 
posted on an extremist website and they would be crowing with 
glory. We would just be giving them a platform on which they 
could grandstand. But I would be prepared to give that 
information personally later.
    Mr. Chabot. Okay. That would be fine. Would you say it is 
significant?
    Mr. Trundley. It is significant.
    Mr. Chabot. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman. As I said previously, I 
think this issue warrants a second round, so let me 
editorialize a minute, the gospel according to Coble, Mr. 
Scott.
    Some folks have indicated that if this bill were enacted it 
would have a chilling effect upon the animal activist 
activities. I think an equally convincing argument could be 
that some of the illegal activities by some of the animal 
activists could have a more obvious chilling effect upon more 
legitimate animal research by law abiding citizens. I think 
that argument ought to be presented.
    Mr. Trundley, your body language told me that you wanted to 
insert your oars into the water as Mr. Delahunt was examining 
Mr. McIntosh. Did you, or did I misread you?
    Mr. Trundley. No, you didn't misread me, sir.
    Mr. Coble. But far away, because Bill's not here to hear 
this, but----
    Mr. Trundley. But the point is H.R. 4239 will be designed 
to assist the police, provide them with the tools and the 
necessary measures to investigate crimes against secondary and 
tertiary targets, whereas existing law is designed to protect 
the primary target. And despite the fact that we have this 
existing law at State and local level, there has still been no 
convictions for the crimes committed against GSK people, 150 in 
the last 21 months.
    We need this legislation to enable the police to become 
proactive in the way they conduct their investigations. These 
people are organized along terrorist cells, independently 
operating and using the Internet and e-mails in order to--
clandestinely, clandestinely to make contact with each other. 
And then the result of their activities are clandestinely 
posted on websites that do not operate within the United States 
or the United Kingdom.
    Mr. Coble. I thank you, sir.
    Dr. Basso, if Mr. Scott had received a telephone call like 
you did, I might say, well, that's just some screwball having a 
little fun, they're mere words, Bobby, don't be upset about it. 
I could say that. But if that call came to me, if I was the 
beneficiary of such a call, Mr. Scott might say the same thing. 
But when you're the beneficiary, it takes on an altogether 
different meaning. I think you can attest to that. And I don't 
mean to be speaking for you, Doctor, but as evidenced by your 
testimony, you were placed in fear, were you not? I know I'm 
leading the witness with that question.
    Dr. Basso. No, you're absolutely correct. I was very 
fearful for my well-being, for the well-being of the laboratory 
personnel and for my animals, in fact. Yeah, this is very 
important.
    Mr. Coble. Well, I reiterate--I don't mean to be speaking 
for every Member of this Subcommittee, but I know each one of 
them on both sides, and I don't think any one of us is 
interested in trampling on first amendment rights, but this is 
a very, very difficult issue it seems to me.
    Mr. Trundley, let me revisit the SHAC terror card. Talk to 
me about that a minute in my time remaining.
    Mr. Trundley. Well, as you can see, sir, the terrorist, as 
we would describe them, is wearing a balaclava or a ski mask to 
disguise their faces. These are issues. The threats are quite 
explicit, stop doing business with Huntingdon Life Sciences, 
stop experimenting on animals. These are left with the 
scientists and members of their families. These are the people 
that are involved in bringing new medicines to the public, 
medicines such as flu vaccines, cervical cancer vaccines, 
breast cancer treatments. Without those people working on those 
products, you won't get them there. And they are terrified, 
they are traumatized, they are debilitated when something like 
that is handed to them personally or sent to them through the 
mail post, or during what is on the surface a peaceful 
demonstration their neighbors are contacted in person and 
handed a terror card such as this, or they're told your 
neighbor, who works for Glaxo Smith Kline, is a pedophile, is a 
puppy killer, is a murderer. It's designed to create terror and 
fear widespread, not just on the individual concerned, but on 
his colleagues when he goes to the office the following day, or 
with his colleagues and wider throughout the research and 
medical communities.
    If it was informed, reasoned, peaceful debate, we would 
welcome that. We like to hear the views of others and we like 
to give our views as well, but in an articulate, controlled and 
informed manner.
    Our point is, why create fear and terror amongst a group of 
scientists or those involved in medical research, not only 
scientists, but sales representatives, admin assistants and 
executives of the company, why create that environment of fear 
of posting it to the Internet?
    Mr. Coble. Well, as you said, Mr. Trundley, designed to 
create fear; actually not only designed to create fear but 
delivering fear.
    Mr. Trundley. It achieves their objective.
    Mr. Coble. In spades. I see the red light.
    The distinguished gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. McIntosh, you have a copy of the bill and the--what's 
called the discussion draft before you?
    Mr. McIntosh. I do, sir.
    Mr. Scott. Okay. Mr. Potter has indicated that the bill may 
proscribe what are legitimate protests. In fact, if you have a 
successful protest--on page 2, line 9, you define the offense 
of whoever travels Interstate 1 for the purpose of disrupting 
and intentionally, on line 15, disrupts, that constitutes the 
crime which would really be the result of--a bona fide result 
of a successful protest.
    The discussion draft, however, makes a change in that, and 
the offense is defined as someone who travels for the purpose 
of damaging or disrupting, and in connection with such purpose, 
A, intentionally damages or causes the loss of property, or 
intentionally places a person in reasonable fear. Now 
intentionally damaging or causing the loss of property is 
already a crime, damaging somebody else's property. Placing 
someone--intentionally placing somebody in fear is already a 
crime, that's assault. Does that change--should that change fix 
the problem that Mr. Potter has articulated?
    Mr. McIntosh. Congressman, as I stated initially, we do not 
believe that the draft of 4239, the introduced bill, is 
unconstitutional. However, to the extent that there are 
concerns that it would show first amendment activity, I think 
it's clear that the discussion draft that I've been shown would 
go a long way toward remedying those concerns.
    Mr. Scott. Mr. Potter, have you seen the discussion draft?
    Mr. Potter. Yes, I have.
    Mr. Scott. Does that address the concerns that you have 
articulated?
    Mr. Potter. No, it does not, sir.
    Mr. Scott. Okay. Why doesn't it?
    Mr. Potter. The main changes I saw in the discussion draft 
were, at the end, the specific exclusion of activity like 
picketing or lawful demonstrations. I'd like to point out that 
we would hope that would already be included under our 
conception of protected activities. So to point it out almost 
implies and acknowledges the overly broad and vague language of 
this legislation and the true danger it poses to first 
amendment activity.
    And furthermore, that language still does not prohibit the 
use of this animal enterprise terrorism clause against things 
like civil disobedience, and perhaps even whistleblowing and 
undercover investigations.
    Mr. Scott. Well, in connection with that, you would have to 
intentionally damage or cause a loss of property, or 
intentionally place someone in reasonable fear of death or 
serious bodily injury.
    Mr. Potter. My concern is that language, ``the loss of 
property,'' is extremely broad and vague. I know the 
Congressman mentioned that there are specific definitions at 
play here, but I think when an average person reads the loss of 
property, any activist will see that and say, that's what I do, 
you know, I'm trying to impact a loss of profit to influence 
their business decisions.
    Mr. Scott. You're using property to include profits?
    Mr. Potter. Excuse me, I misspoke. I'm talking about 
profits. But this says intentionally damages or causes loss of 
property in the discussion draft, page 2, starting on line 1.
    Mr. Potter. And I'm also operating--I'm looking at page 5, 
3a, when we're defining economic damage and disruption with the 
loss of profits as specifically laid out. That was part of the 
crux of my concern of incorporating not only first amendment 
activity, but also civil disobedience through that definition.
    Mr. Scott. Okay. The economic damage comes in the penalty 
part. If you have caused--if you have violated the law and 
caused a loss or damage to property, then you are guilty; the 
penalty comes in for the economic damage. Maybe we need to 
review the cross references, but the fact that you have to be 
exposed under the law, you have to actually damage or cause the 
loss of property, which is a crime already.
    Mr. Potter. I'm sure decisions will be made about the 
interrelation of these definitions in those actual clauses.
    In addition to that, my overriding concern is that, 
regardless of that minutia, using the word ``terrorism'' to go 
after things that are already crimes, such as property crimes, 
and also potentially, as I've raised, first amendment activity, 
will have an overwhelming, chilling effect and add to the 
chilling effect that's already going on by using the words 
ecoterrorism, animal enterprise terrorism in a post-9/11 
climate.
    Mr. Scott. Thank you.
    Mr. Chairman, can I ask one additional question of Mr. 
Trundley?
    Mr. Coble. If you will suspend just a minute, Mr. Scott. 
Folks, we have a vote. I'm inclined--I hate to keep the panel 
here, but, Bill, how long will it take you?
    Go ahead, Mr. Scott.
    Mr. Scott. Have you sought civil remedies against the 
people who were involved in these crimes?
    Mr. Trundley. In the United Kingdom we have, so, yes, but 
the opportunity has not presented itself within the United 
States.
    Mr. Scott. Have those actions been successful?
    Mr. Trundley. In the United Kingdom it was successful in 
that we managed to obtain what's known as a John Doe High Court 
Injunction; that is, an injunction threatening contempt of 
court against persons unknown, which is completely novel and 
new in the U.K.
    Mr. Scott. But no civil damages?
    Mr. Trundley. No, but once the individuals have been 
identified, we would serve that injunction upon them, and then 
go for damages as well.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman. The gentleman from 
Massachusetts.
    Mr. Delahunt. I will be very brief.
    Mr. Coble. Bill, if you will suspend, if you need more time 
we can adjourn and come back.
    Mr. Delahunt. No, that will be unnecessary.
    In terms of the line of questioning by Mr. Scott, I think 
the concerns regarding first amendment issues can be resolved 
by more closely drafted language. I am still at the point, 
however, where I am not convinced that we are going down a road 
of federalizing criminal law. And I know Dr. Basso wanted to 
say something in response to the questions I asked earlier, and 
so let me give her that opportunity.
    Mr. Coble. And Doctor, if you could be brief, we won't keep 
you all here, but we have to go vote, so if you could be terse.
    Mr. Delahunt. This will wrap it up anyhow.
    Dr. Basso. Sure. I guess I was thinking as you were talking 
that there's a particular organization that is moving from 
State to State and establishing little niches of animal rights 
activity across the country, and it struck me that that's more 
an important issue that we as a nation should be taking into 
account rather than a State to State----
    Mr. Delahunt. But my point, Dr. Basso, is that clearly, for 
example, the Post is showing the AK-47. Most States have State 
statutes which prohibit threats----
    Dr. Basso. Right.
    Mr. Delahunt. You know, I would suggest that that State 
statute would just clearly have been violated with that 
particular depiction because the most reasonable inference 
would be that it was intended to create fear, to threat, to 
provide a threat. And the point is that State prosecutors will 
often act much more quickly and expeditiously where aware or 
fully informed of the concerns that both you and Mr. Trundley, 
I believe, have provided us, have testified to, that there is 
more than enough criminal sanctions out there today. It's a 
question of, in my judgment, educating law enforcement both at 
the State and local, as well as the Federal level, because 
Federal resources are very limited. It is only, I dare say, 
those high profile cases; for example, out in Vail, Colorado, 
it was a cause celebre, if you will out there, that directed 
the attention of the Federal authorities to pursue it.
    So in any event, you and your associations, professional 
associations, trade associations might very well want to 
communicate your concerns to the appropriate National District 
Attorneys Association, State Attorney Generals Association, 
National Association of Chiefs of Police, and I think you would 
find a very favorable and positive response.
    Mr. Coble. I thank the gentleman. I thank the panelists, I 
think those in the hearing room who are obviously interested in 
this issue. I apologize for our abrupt departure, but we must 
go vote. But again, I thank the witnesses for your testimony.
    In order to ensure a full record and adequate consideration 
of this important issue, the record will be left open for 
additional submissions for 7 days. Also, any written question 
from a Member to the panel will be required within that same 7-
day period.
    This concludes the legislative hearing on H.R. 4239, the 
``Animal Enterprise Terrorist Act.'' We thank you for your 
cooperation and attendance. And without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 The Honorable Robert C. Scott, a Representative in Congress from the 
     State of Virginia, and Ranking Member, Subcommittee on Crime, 
                    Terrorism, and Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Prepared Statement of the Honorable James Inhofe, U.S. Senator 
               Committee on Environment and Public Works

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


 Prepared Statement of the Honorable Thomas E. Petri, a Representative 
                in Congress from the State of Wisconsin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Prepared Statement of Mr. Frankie L. Trull, President, National 
                  Association for Biomedical Research

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


     Prepared Statement of Dr. Bruce R. Bistrian, President of the 
   Federation of American Societies for Experimental Biology (FASEB)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


Prepared Statement of Mr. Mark L. Bibi, General Counsel, Life Sciences 
                                Research

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


  Prepared Statement of Ms. Gale Davy, Executive Director, Wisconsin 
            Association for Biomedical Research & Education

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Prepared Statement of Mr. Keith Kaplan, Executive Director, Fur 
                     Information Council of America

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Prepared Statement of Mr. Wesley J. Smith, J.D., Senior Fellow, 
                          Discovery Institute

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


   Prepared Statement of Mr. James C. Greenwood, President and CEO, 
                  Biotechnology Industry Organization

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Prepared Statement of the California Healthcare Institute (CHI)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Results of Preliminary Survey of Threat Posed by Animal Rights 
   Extremists, Conducted by the California Healthcare Institute (CHI)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Letter to the Honorable Howard Coble from the Animal Enterprise 
                      Protection Coalition (AEPC)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


                      Letter from F2 Chemicals Ltd

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


 Letter to the Subcommittee on Crime Terrrorism, and Homeland Security 
    from Dr. Amanda Carson Banks, President and CEO, the California 
                    Biomedical Research Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


Letter to the U.S. Committee on Animal Rights Extremism from Mrs. Wendy 
                                 Bantin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


Top 20 List of Illegal Actions by Animal and Eco-Terrorists, 1996-2006, 
           Complied by the Foundation for Biomedical Research

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

        News Article, Animal research does not validate trespass

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
